     TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION 





                                                RECOVERY ACT



                           Millions of Taxpayers May Be Negatively 

                            Affected by the Reduced Withholding 

                         Associated With the Making Work Pay Credit 




                                                November 4, 2009

                                        Reference Number: 2010-41-002




         This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
          and information determined to be restricted from public release has been redacted from this document.

    Redaction Legend:
    1 = Tax Return/Return Information




Phone Number | 202-622-6500
Email Address | inquiries@tigta.treas.gov
Web Site      | http://www.tigta.gov
                                   HIGHLIGHTS 



WHY TIGTA DID THE AUDIT                            •	 Single taxpayers with more than one job.
The Making Work Pay Credit, a provision of         •	 Joint filers where one or both spouses
the American Recovery and Reinvestment Act            have more than one job or both spouses
of 2009, will apply to most taxpayers with            work.
earned income. The credit will be in effect for    •	 Individuals who file a return with an
Tax Years 2009 and 2010. The Making Work              Individual Taxpayer Identification
Pay Credit was implemented using new                  Number.
income tax withholding tables issued by the
                                                   •	 Taxpayers who receive pension
Internal Revenue Service (IRS). Application
                                                      payments.
of the tables could negatively affect a
significant number of taxpayers. The overall       •	 Social Security recipients who receive
objective of this review was to assess IRS            wages.
efforts to implement the Making Work Pay           More than 1.2 million taxpayers included in
Credit and to evaluate its impact on taxpayers.    these groups may be subject to: 1) paying
IMPACT ON TAXPAYERS                                back some or all of the Making Work Pay
                                                   Credit and 2) being assessed the estimated
The Making Work Pay Credit is to be                tax penalty or an increased estimated tax
advanced to taxpayers through their wages by       penalty as a direct result of the Making
a decrease in Federal income tax withholding.      Work Pay Credit.
This creates the vulnerability that some
taxpayers may have their taxes underwithheld       RECOMMENDATIONS AND IRS
at the end of Tax Years 2009 and 2010. If          RESPONSE
taxpayers are advanced more of the Making          TIGTA recommended that the
Work Pay Credit than they are entitled to, they    Commissioner, Wage and Investment
may ultimately owe taxes when filing their         Division: 1) increase media coverage and
Tax Years 2009 and 2010 tax returns and may        consider other forms of advertisement in
be assessed estimated tax penalties.               addition to the mediums already being used
WHAT TIGTA FOUND                                   and, to the extent possible, target these
                                                   communications to taxpayers who may be
Based on an analysis of Tax Year 2007 tax          adversely affected by underwithholding as a
return data, TIGTA estimates that more than        result of the Making Work Pay Credit, and
15.4 million taxpayers could unexpectedly owe      2) authorize the use of the withholding
taxes for Tax Year 2009 as a result of the         tables that were in effect prior to the
Making Work Pay Credit.                            enactment of the American Recovery and
TIGTA’s analysis of the new withholding            Reinvestment Act of 2009 for pension
tables and the amount of the credit that           payments to help prevent a significant
taxpayers are to receive identified taxpayers      number of pensioners from being negatively
who would be advanced more of the credit than      affected by the Making Work Pay Credit.
they were entitled to receive. The changes to      The IRS agreed with Recommendation 1
the withholding tables do not take the following   and disagreed with Recommendation 2.
situations into consideration:
•	 Dependents who receive wages.
                                               DEPARTMENT OF THE TREASURY 

                                                    WASHINGTON, D.C. 20220
 





TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              November 4, 2009


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:	 	                        Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:	 	                     Interim Audit Report – Millions of Taxpayers May Be Negatively
                                 Affected by the Reduced Withholding Associated With the Making
                                 Work Pay Credit (Audit # 200940139)

 This report presents the interim results of our review to assess the Internal Revenue Service
 (IRS) efforts to implement the Making Work Pay Credit and to evaluate its impact on taxpayers.
 Our final report on this subject will be issued in the first quarter of Fiscal Year 2010 and will
 include updated results. The audit addresses the major management challenge of Processing
 Returns and Implementing Tax Law Changes.
 The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provides separate
 funding to the Treasury Inspector General for Tax Administration through September 30, 2013,
 to be used in oversight activities of IRS programs. This audit was conducted using Recovery Act
 funds.
 The IRS questioned the context of the issues presented in this report stating that, for most
 households, the negative effect will mean only a reduced refund and not an out-of-pocket tax
 liability on April 15. This is definitely not the case for the more than 15 million taxpayers
 discussed in this report. If these taxpayers’ situations in Tax Year 2009 remain the same as they
 were in Tax Year 2007, they will face out-of-pocket tax liabilities and may even face estimated
 tax penalties. We acknowledge that some of the taxpayers included in our estimates may have
 had multiple sequential jobs rather than multiple concurrent jobs and, therefore, would not be
 negatively affected by the new Making Work Pay Credit withholding tables. However, this was
 pointed out in the report, and there was no way for either the Treasury Inspector General for Tax

 1
     Pub. L. No. 111-5, 123 Stat. 115.
                  Millions of Taxpayers May Be Negatively
 

              Affected by the Reduced Withholding Associated
 

                       With the Making Work Pay Credit 



Administration or the IRS to estimate those numbers. To downplay the potential effect on
taxpayers with multiple jobs is not consistent with good tax administration.
The IRS also indicates in its response that we did not account for taxpayers who may have fallen
into more than one of our categories of taxpayers who were negatively affected by the new
withholding tables. We would like to make clear that we identified 2,681 taxpayers who are in
more than one of the categories. The number did not affect our overall estimate of 15.4 million
taxpayers that may be affected by the Making Work Pay Credit.
Finally, the IRS stated that we made no attempt to quantify the number of taxpayers who have
already adjusted their withholding based on the changes to the withholding tables. This is not
the case. Although there is no way to systemically identify taxpayers making changes to their
withholding, the report specifically discusses our telephone contacts with taxpayers to determine
whether they were aware of the changes to the tables and whether they had adjusted or would
adjust their withholding. We provide additional comments related to specific recommendations
in the body of this report. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                2
                       Millions of Taxpayers May Be Negatively
 

                   Affected by the Reduced Withholding Associated
 

                            With the Making Work Pay Credit 





                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Implementation of the Making Work Pay Credit
          May Negatively Affect More Than 15.4 Million Taxpayers........................Page 3
                    Recommendation 1:........................................................Page 14

                    Recommendation 2: .................................................................. Page 15

          Some Taxpayers May Be Assessed the Estimated Tax
          Penalty As a Result of the Making Work Pay Credit ...................................Page 15 


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 18 

          Appendix II – Major Contributors to This Report ........................................Page 23 

          Appendix III – Report Distribution List .......................................................Page 24 

          Appendix IV – Management’s Response to the Draft Interim Report .........Page 25 

            Millions of Taxpayers May Be Negatively
 

        Affected by the Reduced Withholding Associated
 

                 With the Making Work Pay Credit 





                         Abbreviations

ES                 Estimated Tax
IRS                Internal Revenue Service
ITIN               Individual Taxpayer Identification Number
TIGTA              Treasury Inspector General for Tax Administration
TY                 Tax Year
                     Millions of Taxpayers May Be Negatively
 

                 Affected by the Reduced Withholding Associated
 

                          With the Making Work Pay Credit 





                                             Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 contains many
economic stimulus provisions, one of which is the Making Work Pay Credit found in
Section 1001 of the Act. The Making Work Pay Credit is the main focus of this report; however,
we reference two other provisions of the Recovery Act that affect the Making Work Pay Credit,
namely Section 2201 “Economic Recovery Payment to Recipients of Social Security,
Supplemental Security Income, Railroad Retirement Benefits, and Veterans Disability
Compensation or Pension Benefits” and Section 2202 “Special Credit for Certain Government
Retirees.”
The Making Work Pay Credit is a refundable tax credit allowed against the lesser of 6.2 percent
of earned income or $400 ($800 in the case of a joint
return). The credit will be reduced as taxpayers’
modified Adjusted Gross Income exceeds $75,000                  Single filers are eligible for a
($150,000 for joint filers) and will be completely phased    Making   Work Pay Credit of up to
                                                             $400 while joint filers are eligible
out as taxpayers’ modified Adjusted Gross Income
                                                               for up to $800 per household.
reaches $95,000 ($190,000 for joint filers).2 In order to
qualify for the Making Work Pay Credit, individuals
must have both earned income and a valid Social Security Number. In the case of a joint return,
only one valid Social Security Number is required. Earned income is defined in Section 32 of
the Internal Revenue Code as “wages, salaries, tips, and other employment compensation…plus
the amount of the taxpayer’s net earnings from self-employment…no amount received as a
pension or annuity shall be taken into account.”
Implementing the Making Work Pay Credit is a challenge for the Internal Revenue Service (IRS)
because of the requirement for it to be advanced to taxpayers throughout the year and later
claimed on their individual income tax returns. The credit is to be advanced to taxpayers by their
employers through withholding reductions that result in an increase in take home pay, which is
intended to help increase spending and stimulate the economy. Nonetheless, advancing the
Making Work Pay Credit to taxpayers through reduced income tax withholding creates the
potential for some taxpayers to have their taxes underwithheld at the end of the year if the
adjustment in their withholding is significantly different than the amount of the Making Work
Pay Credit to which they will be entitled. Adding to the difficulty of administering the Making

1
  Pub. L. No. 111-5, 123 Stat. 115.
2
  The phase-out limits in the law are different than those limits contained in the new withholding tables (this was
intentionally done to minimize the negative impact on two earner families). The new tables begin phasing out at
about $66,530 ($118,130 for joint filers) and phase out completely at about $84,300 ($144,800 for joint filers). In
determining the number of taxpayers negatively affected, we used the phase-out amounts found in the new tables.
                                                                                                             Page 1
                      Millions of Taxpayers May Be Negatively
 

                  Affected by the Reduced Withholding Associated
 

                           With the Making Work Pay Credit 




Work Pay Credit are Sections 2201 and 2202 of the Recovery Act which address other economic
recovery benefits to be received by certain taxpayers. These benefits affect the amount of
Making Work Pay Credit these taxpayers are eligible to receive. The Making Work Pay Credit
will be reduced by any payment received as a result of Section 2201 and by any credit allowed
by Section 2202 of the Recovery Act. These situations will be discussed in greater detail later in
this report.
The Department of the Treasury has created new withholding tables that take the Making Work
Pay Credit into account. The IRS issued the new tables along with instructions to employers
found in New Wage Withholding and Advance Earned Income Credit Payment Tables
(Publication 15-T) and (Circular E), Employer’s Tax Guide (Publication 15). The IRS instructed
employers to use the new withholding tables in lieu of the applicable previously published tables
and to do so by April 1, 2009. In addition, the IRS instructed that the new tables should be
applied to pensions. The tables were designed to advance about $400 to single filers and about
$600 to joint filers by the end of Tax Year (TY) 2009. Joint filers3 will then receive the
additional $200 credit when they file their TY 2009 tax returns since they are eligible for up to
$800.
These interim results of our audit to assess IRS efforts to implement the Making Work Pay
Credit and to evaluate its impact on taxpayers are for the audit work completed as of
August 14, 2009. Our final report will be issued in the first quarter of Fiscal Year 2010 and will
include updated results.
This review was performed at the IRS Campus4 in Ogden, Utah, and included analysis of tax data
located on the Treasury Inspector General for Tax Administration’s (TIGTA) Data Center
Warehouse5 as well as discussions and analysis of information provided by the United States
Department of the Treasury and the IRS Wage and Investment Division. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. We will provide more detailed objectives and scope in
our final report. Major contributors to the report are listed in Appendix II.



3
  Joint filers for the purpose of this report refers to taxpayers with filing status 2 – married taxpayer filing joint
return, filing status 3 – married filing a separate return and spouse is also filing a return, or filing status 6 – married
filing separate return and spouse is not required to file a return.
4
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
5
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
                                                                                                                    Page 2
                     Millions of Taxpayers May Be Negatively
 

                 Affected by the Reduced Withholding Associated
 

                          With the Making Work Pay Credit 





                                       Results of Review

Implementation of the Making Work Pay Credit May Negatively Affect
More Than 15.4 Million Taxpayers
Because of the difficulty in modifying withholding tables to account for all the different taxpayer
situations which can affect total withholding as well as eligibility for the Making Work Pay
Credit, advancing the Making Work Pay Credit to taxpayers through reduced income tax
withholding creates the vulnerability that some taxpayers may have their taxes underwithheld at
the end of the year. If taxpayers are advanced more of the Making Work Pay Credit than they
are entitled to, they may ultimately owe taxes when they file their TY 2009 and 2010 tax returns.
We analyzed the changes to the tax tables as they applied to various taxpayer groups to identify
groups that could potentially be advanced more Making Work Pay Credit than they are entitled
to receive. We determined the tables did not account for taxpayer situations such as:
    •	 Dependents who receive wages.
    •	 Single taxpayers with more than one job.
    •	 Joint filers in households where both spouses work or where one or both spouses have
       more than one job.
    •	 Individuals who file a return with an Individual Taxpayer Identification Number (ITIN).6
    •	 Taxpayers who receive pension payments.
    •	 Taxpayers who are employed and receive Social Security or similar benefits referred to in
       Section 2201 of the Recovery Act.
To determine the extent to which such taxpayers might be negatively affected7 by the new
withholding tables, we developed computer programs to identify taxpayers in the previously
discussed situations in TY 2007 and who either owed taxes with their returns and would have
owed more taxes, or had small refunds but would have owed had the new withholding tables
been in effect. Figure 1 shows that more than 15.4 million taxpayers, or 10.4 percent
(15,473,463/149,494,988) of all taxpayers who filed, could be negatively affected.

6
  The IRS issues ITINs to help noncitizens comply with the United States tax laws and to provide a means to
 

efficiently process and account for tax returns. Only individuals who have valid filing requirements or are filing tax
 

returns to claim refunds of over-withheld taxes are eligible to receive ITINs. 

7
  Although every taxpayer in our identified scenarios will have a reduced refund, we defined “negatively affected” 

as those who will have a balance due or increased balance due as a result of the Making Work Pay Credit. 

                                                                                                               Page 3
                  Millions of Taxpayers May Be Negatively
 

              Affected by the Reduced Withholding Associated
 

                       With the Making Work Pay Credit 




                  Figure 1: Percentage of Taxpayers Negatively Affected

                           Population of TY 2007 Filers (149,494,988)

                                                                       134,021,525




                                                                           Estimate of Total
                                                                           Taxpayers Who May Be
       10.4%                                                               Negatively Affected by the
     15,473,463                                                            Making Work Pay Credit




Source: Data Center Warehouse Queries.

For each taxpayer situation previously discussed, an explanation and examples are given to
illustrate why taxpayers would owe if their filing status and tax circumstances from TY 2007
remain the same when they file their TY 2009 income tax return.

Dependents who receive wages
The Recovery Act specifically excludes taxpayers who can be claimed as dependents on
someone else’s tax return from receiving the Making Work Pay Credit. However, employers are
required to use the same withholding tables for these individuals as they use for all others. Many
individuals who receive wages and are claimed as dependents on someone else’s tax return will
have the Making Work Pay Credit advanced to them throughout the year, only to be required to
pay it back upon filing their TY 2009 tax returns because they do not qualify for the credit.
Using TY 2007 data, we identified 1,665,682 taxpayers who
met the following criteria: single, claimed as a dependent
                                                                More than 1.6 million working
on someone else’s return, earned wages and had taxable               dependents could be
income, had withholding, did not make estimated tax                 negatively affected by
payments, did not receive pension or Social Security                 reduced withholding
income, and had a refund of $400 or less. This represents        associated with the Making
18.4 percent (1,665,682/9,073,406) of all working                      Work Pay Credit.
dependents who filed. If these taxpayers’ situations remain
the same for TY 2009, they could find themselves owing
taxes when they are accustomed to receiving a tax refund or could find themselves owing
significantly more than they have in the past.
Example: A taxpayer is claimed by his or her parents and works for the entire year during
TY 2009. By the end of the year, this taxpayer will have had $400 less withheld from his or her
wages. Since he or she is claimed as a dependent, this taxpayer is not eligible for the Making

                                                                                                Page 4
                         Millions of Taxpayers May Be Negatively
 

                     Affected by the Reduced Withholding Associated
 

                              With the Making Work Pay Credit 




Work Pay Credit and will therefore have to pay back the $400 that he or she was advanced in the
form of decreased withholding during the year. If this taxpayer usually receives a $200 refund,
he or she will owe $200 when his or her TY 2009 tax return is filed. This scenario is
exacerbated if taxpayers hold more than one job.
             Figure 2: Percentage of Working Dependents Negatively Affected

                        Population of Working Dependents in TY 2007 (9,073,406)

                                                                                 7,407,724


                                                                                     Estimate of Working
                                                                                     Dependents Who May Be
                                                                                     Negatively Affected by the
                                                                                     Making Work Pay Credit

           18.4%
         1,665,682


    Source: Data Center Warehouse Queries.

Single filers who have multiple jobs
Individuals who receive wages from more than one employer may have more of the Making
Work Pay Credit advanced to them than they qualify to receive. These taxpayers will be
responsible for paying back the excess Making Work Pay Credit they received throughout the
year when they file their TY 2009 tax return.
Using TY 2007 data, we identified 2,514,5368 taxpayers who met the following criteria: single,
had multiple Wage and Tax Statements (Form W-2), had taxable income, had withholding, did
                                   not make estimated tax payments, did not receive pension or
    More than 2.5 million single
                                   Social Security income, and had a refund of $400 or less.
  taxpayers could be negatively 
 This represents 9.5 percent (2,514,536/26,469,163) of all
   affected by the Making Work 
   single filers with multiple Forms W-2. If these taxpayers’
            Pay Credit.            situations remain the same for TY 2009, they could owe
                                   taxes when they are accustomed to receiving a tax refund or
                                   could owe significantly more than they have in the past.
Example: An unmarried taxpayer has two jobs for all of Calendar Year 2009. By the end of the
year, this taxpayer will have received $800 through reduced withholding. As a single filer, the

8
  Our computer programs identified taxpayers with multiple Forms W-2; however, we could not determine whether
the taxpayers’ jobs were concurrent or not. The negative impacts described would occur only if the jobs were
concurrent.
                                                                                                          Page 5
                   Millions of Taxpayers May Be Negatively
 

               Affected by the Reduced Withholding Associated
 

                        With the Making Work Pay Credit 




taxpayer is eligible for only $400 of the Making Work Pay Credit and will therefore have to pay
back the extra $400 that he or she was advanced in the form of decreased withholding during the
year. If this taxpayer usually receives a $200 refund, he or she will owe $200 when his or her
TY 2009 tax return is filed. This scenario is exacerbated if taxpayers have more than two jobs.
     Figure 3: Percentage of Single Filers With Multiple Forms W-2 Negatively 

                                     Affected 


                   Population of Single Filers With Multiple Forms W-2 in TY 2007
                                            (26,469,163)
                                                                     23,954,627


                                                                         Estimate of Total Single
                                                                         Filers With Multiple Jobs
                                                                         Who May Be Negatively
                                                                         Affected by the Making Work
                                                                         Pay Credit
          9.5%
       2,514,536



Source: Data Center Warehouse Queries.

Joint filers who have multiple jobs
Households in which both spouses work, or in which only one spouse is employed but has more
than one job, may have more of the Making Work Pay Credit advanced to them than they qualify
to receive. These taxpayers will be responsible for paying back the excess credit they received
during the year when they file their TY 2009 tax returns. The Recovery Act states that joint
filers qualify to receive $800 in Making Work Pay Credit. The withholding tables that account
for the Making Work Pay Credit provide $600 of the $800 allowed. The remaining $200 will be
received when the taxpayers file their TY 2009 tax return. The tax tables do not take into
consideration whether an employee has more than one job or has a spouse who is employed. In
these cases, the employee will most likely receive excess Making Work Pay Credit in advance.
Using TY 2007 data, we identified 4,197,675 taxpayers
who met the following criteria: filed jointly, had            More than 4.1 million taxpayers
multiple Forms W-2, had taxable income, had                   filing jointly could be negatively
withholding, did not make estimated tax payments, did                       affected.
not receive pension or Social Security payments, and
had a refund of $400 or less. This represents
13.8 percent (4,197,675/30,515,058) of all joint filers with multiple Forms W-2. These
taxpayers could owe taxes or owe more taxes in TY 2009 because of the excess Making Work
Pay Credit that they received.

                                                                                                Page 6
                   Millions of Taxpayers May Be Negatively
 

               Affected by the Reduced Withholding Associated
 

                        With the Making Work Pay Credit 




Example: For a household in which both spouses were employed for the whole year during
Calendar Year 2009, by the end of the year, these taxpayers will have had $1,200 less withheld
from their wages. As joint filers, they are eligible for $800 and will therefore have to pay back
the extra $400 that they received through reduced withholding during the year. If these
taxpayers usually receive a $200 refund, they will owe $200 when they file their TY 2009 tax
return. This scenario is exacerbated if either spouse has more than one job.
Figure 4: Percentage of Joint Filers With Multiple Forms W-2 Negatively Affected

                 Population of Joint Filers With Multiple Forms W-2 in TY 2007
                                          (30,515,058)               26,317,383



                                                                              Estimate of Total Joint Filers
                                                                              With Multiple Forms W-2
                                                                              Who May Be Negatively
                                                                              Affected by the Making Work
          13.8%                                                               Pay Credit
        4,197,675



Source: Data Center Warehouse Queries.

Taxpayers filing with an ITIN
The Recovery Act specifically excludes individuals whose returns do not include a Social
Security Number from receiving the Making Work Pay Credit. In other words, if an individual
files an income tax return using an ITIN issued by the IRS, this taxpayer is precluded from
receiving the Making Work Pay Credit. Taxpayers with ITINs will have the Making Work Pay
Credit advanced to them throughout the year, but will have to pay it back when they file their
TY 2009 tax returns.
                                     Using TY 2007 data, we identified 87,243 taxpayers who
     More than 87,000 taxpayers      met the following criteria: filed with an ITIN, had taxable
 filing returns with ITINs could be  income, had withholding, did not make estimated tax
         negatively affected.        payments, did not receive pension or Social Security
                                     payments, and had a refund of $600 or less if married and
                                     filed a joint tax return, or $400 or less if they filed a single
tax return. This represents 3.8 percent (87,243/2,287,170) of all working ITIN filers. These
taxpayers could owe taxes or owe more taxes in TY 2009 because of the Making Work Pay
Credit that they received.
Example: Married taxpayers who have ITINs rather than Social Security Numbers were
employed for the whole year during Calendar Year 2009. By the end of the year, these taxpayers

                                                                                                     Page 7
                        Millions of Taxpayers May Be Negatively
 

                    Affected by the Reduced Withholding Associated
 

                             With the Making Work Pay Credit 




will have had $1,200 less withheld from their wages ($600 each). Because they have ITINs
rather than Social Security Numbers, they are not eligible for the Making Work Pay Credit and
will have to pay back the $1,200 that they were advanced during the year through decreased
withholding. If these taxpayers usually receive a $200 refund, they will owe $1,000 when they
file their TY 2009 tax return. This scenario is exacerbated if either spouse has more than one
job.
              Figure 5: Percentage of Working ITIN Filers Negatively Affected

                        Population of Working ITIN Filers in TY 2007 (2,287,170)

                                                                               2,199,927


                                                                                 Estimate of Working ITIN
                                                                                 Filers Who May Be Negatively
                                                                                 Affected by the Making Work
                                                                                 Pay Credit

            3.8%
           87,243


    Source: Data Center Warehouse Queries.

Taxpayers who receive pension payments
The Recovery Act states that the Making Work Pay Credit is the lesser of 6.2 percent of earned
income of the taxpayer or $400 ($800 for taxpayers filing a joint return). Internal Revenue Code
Section 32(c)(2)(A), in defining earned income, states “The term “earned income” means wages,
salaries, tips and other employee compensation…” Section 32(c)(2)(B)(ii) continues the
definition and states, “no amount received as a pension or annuity shall be taken into account.”
Therefore, by definition, pension payments are not earned income, and recipients of such
payments were not intended by the law to receive the Making Work Pay Credit. However, when
developing the new withholding tables, the Department of the Treasury provided the same tax
tables to pension fund administrators as it did to employers. In discussions with the TIGTA,
officials from the Department of the Treasury and IRS stated that their reasoning for treating
pensions and wages the same was found in Internal Revenue Code Section 3405(a)(1) which
states “The payor of any periodic payment (as defined in subsection (e)(2))9 shall withhold from
such payment the amount which would be required to be withheld from such payment if such
payment were a payment of wages by an employer to an employee for the appropriate payroll
period.” Since pensions are periodic payments, the Department of the Treasury and the IRS

9
 Internal Revenue Code Section 3405(e)(2). The term “periodic payment” means a designated distribution which is
an annuity or similar periodic payment.
                                                                                                         Page 8
                  Millions of Taxpayers May Be Negatively
 

              Affected by the Reduced Withholding Associated
 

                       With the Making Work Pay Credit 




stated that pensions should therefore be treated as wages for withholding purposes. In its
instructions related to newly developed tables, the IRS stated “for the calculation of income tax
withholding on pensions, these new withholding tables also apply.”
On May 7, 2009, we issued an audit alert to the IRS discussing this issue and recommending
immediate action, including seeking a technical correction to the law if necessary to resolve the
issue and allow pension administrators to use the withholding tables in place prior to the
implementation of the Making Work Pay Credit. Subsequent to our audit alert, the IRS issued
Additional Withholding for Pensions for 2009 (Notice 1036-P). Rather than allowing pension
administrators to simply use the withholding tables in place prior to the Making Work Pay
Credit, this notice contained additional withholding tables that were applicable only to pensions
and were to be used in conjunction with the other Making Work Pay Credit withholding tables.
These new pension withholding tables were designed to offset the Making Work Pay Credit.
The IRS made the use of the new pension tables optional. While this action may have reduced
the negative effects for some pensioners, we do not believe it fully resolved this issue.
Since the new tables are to be used in conjunction with the previously issued tables, it imposes a
significant burden on pension administrators. One State retirement agency that we contacted
stated they simply could not program the additional table into their computer system. This State
agency contacted IRS personnel seeking to resolve the multiple table issue and was told it could
use whatever table would withhold more tax. This instruction is inconsistent with the
Department of the Treasury guidance since the tables that would withhold more tax are those that
were in effect prior to the implementation of the Recovery Act. Because of this burden, and
because the use of the tables in Notice 1036-P was optional, other pension administrators may
choose not to use them. We contacted a major United States insurance company that services
pensions for other companies and found that they chose to not use the optional withholding
tables. This could cause many taxpayers whose pensions are administered by this company to be
underwithheld, requiring them to repay the Making Work Pay Credit erroneously advanced to
them.
The Department of the Treasury guidance for pension administrators is different from what the
Federal Government follows. In discussions with the TIGTA, the Office of Personnel
Management (the agency which administers pensions for the Federal Government) stated that
they did not use any of the new tables to calculate withholding payments because the new tables
apply to earned income, not pensions and annuities. Instead, the Office of Personnel
Management is using the tables in place prior to the Making Work Pay Credit.
Adding to the difficulty of administering the Making Work Pay Credit for pensioners are
Sections 2201 and 2202 of the Recovery Act which address other economic recovery benefits to
be received by certain taxpayers. These benefits affect the amount of Making Work Pay Credit
that these taxpayers are eligible to receive.



                                                                                            Page 9
                     Millions of Taxpayers May Be Negatively
 

                 Affected by the Reduced Withholding Associated
 

                          With the Making Work Pay Credit 




Section 2201 provides for one-time payments of $250 to be made to recipients of Social Security
benefits, railroad retirement benefits, veterans’ disability compensation, or veterans’ pension
benefits. Generally, these taxpayers will not be eligible for the Making Work Pay Credit.
However, if they earn wages in addition to their other benefits, they may be eligible for a
reduced Making Work Pay Credit. The amount of any Making Work Pay Credit they are eligible
for must be reduced by their one-time payment. Consider the following example: a single
taxpayer, who is employed, receives a $250 check because he or she is a recipient of Social
Security benefits. Instead of qualifying for the full $400 of the Making Work Pay Credit, this
taxpayer now qualifies for $150 ($400 - $250).
Section 2202 of the Recovery Act addresses a special credit for certain Government retirees
(Federal and State). The amount of this credit is $250. It is not made directly to the taxpayers,
but is a credit available to them when they file their individual income tax returns. Again, the
amount of any Making Work Pay Credit these taxpayers are eligible for must be reduced by the
amount of this special credit. Consider the following example: a joint filing Federal retiree, who
is employed but whose spouse does not work, is eligible to claim a $250 credit upon filing his or
her TY 2009 individual income tax return. As a result, this husband and wife are no longer
eligible for the full $800 Making Work Pay Credit, but rather $550 ($800 - $250).
Using TY 2007 data, we identified 6,321,313 taxpayers
who met the following criteria: had taxable income, had      More than 6.3 million pensioners
withholding, did not make estimated tax payments,              may be negatively affected.
received pension payments,10 and had a refund of either
$650, $600, or $400 or less depending on the other criteria
described below. This represents 22.2 percent (6,321,313/28,451,932) of all pensioners. These
taxpayers could owe taxes or owe more taxes in TY 2009 when they are accustomed to receiving
a tax refund. The following examples11 show why we used the refund amounts of $650, $600,
and $400.
Example: A single taxpayer receives pension payments, receives Social Security benefits, and is
employed for the whole year during Calendar Year 2009. This individual will receive $400
through his or her pension, $400 through his or her wages, and $250 from the Social Security
Administration. By the end of the year, this household will have received an extra $1,050. As a
single filer who is employed, this individual is eligible for $400 and will therefore have to pay
back the extra $650 that he or she received during the year. This scenario is exacerbated if
taxpayers have more than one job. We identified approximately 1.8 million taxpayers who met
this or similar situations.

10
   From the information in our extract, we were unable to identify the number of Federal retirees in this estimate. 

On an income tax return, annuities are reported on the same line as pensions. Therefore, we also were unable to
 

identify the number of annuity recipients in this estimate. 

11
   For joint filers in each of the given examples, it is assumed that there is only one pension, one social security 

recipient, and one wage earner, if applicable. 

                                                                                                              Page 10
                  Millions of Taxpayers May Be Negatively
 

              Affected by the Reduced Withholding Associated
 

                       With the Making Work Pay Credit 




Example: A joint filer receives a pension and Social Security benefits, but does not work during
Calendar Year 2009. This household will receive $600 through the pension and $250 from the
Social Security Administration. By the end of the year, this household will have received $850.
The household only qualifies for the Social Security Administration payment, meaning that they
will owe $600 when they file their TY 2009 return. This scenario is exacerbated if each spouse
is receiving a pension. We identified approximately 1.8 million taxpayers who met this or
similar situations.
Example: A joint filer receives a pension, is employed during Calendar Year 2009, but does not
receive Social Security benefits. This household will receive $600 through the pension and $600
through the wages, for a total of $1,200. As a joint filer who is employed, this household is
eligible for $800 meaning that they will owe $400 when they file their TY 2009 return. This
scenario is exacerbated if each spouse is employed or receives a pension. We identified
approximately 2.5 million taxpayers who met this or similar situations.
Example: A single taxpayer who receives a pension during TY 2009 and neither works nor
receives Social Security benefits will receive $400 through his or her pension. Since pensions
are specifically excluded from the definition of earned income on which the Making Work Pay
Credit is based, he or she will have to pay the entire amount back that was advanced to him or
her. We identified approximately 241,000 taxpayers who met this or similar situations.
                  Figure 6: Percentage of Pensioners Negatively Affected

                        Population of Pensioners in TY 2007 (28,451,932)

                                                                     22,130,619



                                                                         Estimate of Total Pensioners
                                                                         Who May Be Negatively
                                                                         Affected by the Making Work
                                                                         Pay Credit
        22.2%
      6,321,313


Source: Data Center Warehouse Queries.

Non-pensioners who receive Social Security benefits and are employed
As mentioned previously, Section 2201 of the Recovery Act states that Social Security recipients
are to receive a $250 one-time payment from the Secretary of the Treasury. Social Security
recipients who are employed will also be advanced $400 ($600 for joint filers) through reduced
withholding from their paychecks. The Making Work Pay Credit is to be reduced by any
payment received under Section 2201. Taxpayers who work and receive Social Security benefits

                                                                                             Page 11
                     Millions of Taxpayers May Be Negatively
 

                 Affected by the Reduced Withholding Associated
 

                          With the Making Work Pay Credit 




will have the Making Work Pay Credit advanced to them during the year but will have to pay
back the excess when filing their TY 2009 return.
                                      Using TY 2007 data, we identified 687,014 taxpayers who
      More than 687,000 Social        met the following criteria: had taxable income, wages,
    Security recipients who work      withholding, did not make estimated tax payments,
     may be negatively affected.      received Social Security benefits, and had a refund of
                                      $250/$50 or less depending on the other criteria as
                                      described in the following examples. This represents
25.8 percent (687,014/2,666,854) of all working Social Security recipients. These taxpayers
could owe taxes or owe more taxes in TY 2009 when they are accustomed to receiving a tax
refund. The following examples show why we used the refund amounts of $250 and $50.12
Example: A single taxpayer who receives Social Security benefits will receive a $250 stimulus
check from the Secretary of the Treasury in TY 2009. This individual will also have $400
advanced to him or her through decreased withholding at work. This individual will receive a
total of $650 in stimulus funds even though he or she qualifies for only $400. Therefore, he or
she will be required to repay the excess $250 received.
Example: A joint filing household who receives Social Security benefits will receive a
$250 stimulus check from the Secretary of the Treasury in TY 2009. This household will also
have $600 advanced to them through their decreased withholding at work. This household will
receive a total of $850 in stimulus funds even though they qualify for only $800. Therefore, they
will be required to repay the excess $50 received.




12
 For joint filers in each of the given examples, it is assumed that there is only one Social Security recipient and one
wage earner.
                                                                                                             Page 12
                         Millions of Taxpayers May Be Negatively
 

                     Affected by the Reduced Withholding Associated
 

                              With the Making Work Pay Credit 




 Figure 7: Percentage of Working Social Security Recipients Negatively Affected

               Population of Working Social Security Recipients in TY 2007 (2,666,854)

                                                                                      1,979,840

                                                                                           Estimate of Total Social
                                                                                           Security Recipients Who
                                                                                           May Be Negatively
                                                                                           Affected by the Making
                                                                                           Work Pay Credit
            25.8%
           687,014



 Source: Data Center Warehouse Queries.

IRS outreach efforts to inform taxpayers about the Making Work Pay Credit
In April 2009, the TIGTA issued an audit alert notifying the IRS that many taxpayers could be
negatively affected by the Making Work Pay Credit. The alert recommended the IRS educate
taxpayers about the Making Work Pay Credit and what
they may need to do to prevent its potentially negative
effects on their income taxes. The IRS informed the               The IRS has established the
                                                                 2009 ARRA Outreach Strategy
TIGTA that it was working on a general awareness
                                                                    Team to inform taxpayers
campaign to educate taxpayers about the Making Work               about the Making Work Pay
Pay Credit and the implications it may have concerning           Credit and other Recovery Act
their withholding. Since that audit alert was issued, the                    issues.
                                      13
IRS has established the 2009 ARRA Outreach Strategy
Team. The Team is led by the Wage and Investment Division Stakeholder Partnerships,
Education, and Communication function and consists of representatives from the Wage and
Investment Division Stakeholder Partnerships, Education, and Communications function,
Customer Assistance, Relationships, and Education Program Management function, Field
Assistance function, Media and Publications function, Communications and Liaison function; the
Small Business/Self-Employed Division; the Taxpayer Advocate Service; and the Tax Exempt
and Government Entities Division. The mission of the Team is to “develop an overall outreach
strategy for the provisions of the Recovery Act affecting individual taxpayers and associated
business stakeholders.” The outreach strategy specific to the Making Work Pay Credit includes
identification of the targeted audiences, explanation of the issues, key messages, and outreach
activities. The Team is also developing outreach efforts that are to include print, video, and


13
     American Recovery and Reinvestment Act of 2009 (Pub. L. No. 111-5, 123 Stat. 115. )
                                                                                                             Page 13
                       Millions of Taxpayers May Be Negatively
 

                   Affected by the Reduced Withholding Associated
 

                            With the Making Work Pay Credit 




audio products. A component of this outreach effort is to produce flyers that will address several
Recovery Act issues, including the Making Work Pay Credit and its impact on pensioners.
In May 2009, we randomly contacted 50 taxpayers by telephone that fit into the scenarios in
which taxpayers may be negatively affected by the Making Work Pay Credit. Five taxpayers
knew that they may potentially be negatively affected. ******1***********************.
On June 25, 2009, the IRS issued a special addition tax tip through its Newswire service that
focused on the Making Work Pay Credit. The notice informed taxpayers of the different
scenarios in which taxpayers may be negatively affected by the credit. The Newswire article
also included links to both an audio and a video presentation that stressed the importance of
taxpayers checking their Employee’s Withholding Allowance Certificate (Form W-4) to avoid
having taxes underwithheld. The video is posted on youtube.com14 and the audio is posted on
IRS.gov (the IRS public web site). The video does not warn Social Security recipients who are
employed and ITIN filers about the potential negative effect of the Making Work Pay Credit, but
the audio clearly covers those groups of individuals.
To determine the effect of the IRS communication efforts, in July 2009, we again contacted
taxpayers to determine if they were aware of the potentially negative effects the Making Work
Pay Credit might have on their income tax filing. We randomly contacted an additional
50 taxpayers by telephone that fit into the scenarios in which taxpayers may be negatively
affected by the Making Work Pay Credit. Our results indicated no improvement. Three
taxpayers knew that they may potentially be negatively affected. *******1************** .
In August 2009, we randomly contacted an additional 14 taxpayers by telephone that fit into the
scenarios of single and joint filers who have multiple jobs and may be negatively affected by the
Making Work Pay Credit. Unfortunately, once again there were no signs of improvement. ***1*****.
 None of the taxpayers knew how to avoid being negatively affected.

Recommendations
Recommendation 1: The Commissioner, Wage and Investment Division, should increase
media coverage and consider other forms of advertisement in addition to the mediums already
being used. To the extent possible, the IRS should target these communications to taxpayers
who may be adversely affected by underwithholding as a result of the Making Work Pay Credit.
           Management’s Response: The IRS agreed with this recommendation and the
           importance of exploring every avenue for communicating to the public about the Making


14
     A video sharing web site.
                                                                                          Page 14
                  Millions of Taxpayers May Be Negatively
 

              Affected by the Reduced Withholding Associated
 

                       With the Making Work Pay Credit 




       Work Pay Credit. The Chief, National Communications and Liaison, will continue to
       tailor the information to the specific media vehicle used. Additional plans for
       communication include: distributing a radio public service announcement on the Making
       Work Pay Credit; distributing an Internet banner ad to a wide range of web sites that
       serve the affected Making Work Pay taxpayer groups; and providing English and Spanish
       satellite media tours to television stations nationwide, one scheduled for September and
       October 2009.
Recommendation 2: The Commissioner, Wage and Investment Division, should
immediately work with the Department of the Treasury to allow pension administrators to use
the withholding tables that were in place prior to the enactment of the Recovery Act, thereby
eliminating the complexity of the current adjustment.
       Management’s Response: The IRS disagreed with this recommendation, stating that
       the new procedure issued in May 2009 by the IRS results in the pension withholding that
       approximates the withholding rate schedules used prior to the enactment of the Making
       Work Pay Credit and, thus, is correct for pensions. The IRS response also stated that
       traditionally there has been only one set of withholding rates for all types of payments
       and providing additional sets of withholding tables would be burdensome, costly, and
       confusing for the IRS, taxpayers, and employers.
       Office of Audit Comment: The recommendation made by the TIGTA to allow
       pension plan administrators to use the withholding tables which were in place prior to the
       implementation of the Recovery Act would significantly reduce the burden the IRS is
       now placing on these taxpayers and would be consistent with the process being used by
       the Federal Government’s Office of Personnel Management.
       As stated in our report, the IRS’ solution to the problem associated with pensions and the
       Making Work Pay Credit was to issue a second set of tables to be used in conjunction
       with the other Making Work Pay Credit withholding tables. This created a much larger
       burden for the pension administrators than would be created by allowing them to revert to
       the pre-Making Work Pay Credit tables. As noted previously, at least one State
       retirement agency stated the burden was so significant they simply could not program the
       IRS’ second set of tables into their computer system. We believe the IRS should
       reconsider their response to our recommendation.

Some Taxpayers May Be Assessed the Estimated Tax Penalty As a
Result of the Making Work Pay Credit
The United States income tax system operates on a “pay as you go” basis, meaning that
taxpayers must pay their income taxes throughout the year as their income is earned. Taxpayers
accomplish this either through quarterly estimated tax payments or through withholding on their
incomes. If taxpayers have significantly underpaid their taxes at the time they file their

                                                                                         Page 15
                    Millions of Taxpayers May Be Negatively
 

                Affected by the Reduced Withholding Associated
 

                         With the Making Work Pay Credit 




individual income tax returns, they may be assessed an estimated tax (ES) penalty. Taxpayers
have the option of computing this penalty themselves or allowing the IRS to compute it for them.
The Making Work Pay Credit is being administered through reduced withholding which means
that those taxpayers who are advanced more of the Making Work Pay Credit through reduced
withholding than they are entitled to may have their taxes underwithheld to the extent that they
will be subject to the ES penalty.
                                      Based on TY 2007 data, we estimate that just more than
                                      122,00015 taxpayers may be assessed the ES penalty in TY
   More than 1.2 million taxpayers    2009 as a result of the Making Work Pay Credit. We also
      may be negatively affected      estimate that an additional 1.15 million taxpayers may
        through the ES penalty.
                                      have their ES penalty amount increased due to the Making
                                      Work Pay Credit. Using the same criteria as found in the
                                      previously discussed scenarios, these taxpayers were
identified as those who may be negatively affected through the ES penalty in addition to being in
a balance due or increased balance due situation. The Recovery Act also contains provisions in
which the Education Credit, Earned Income Credit, and Child Tax Credit will increase. To
ensure that our figures remained conservative, we excluded all TY 2007 returns that claimed any
one of these credits.
Internal Revenue Code Section 6654(e)(3)(A) addresses the issue of waiving the ES penalty in
some instances in which it states “No addition to tax shall be imposed…with respect to any
underpayment to the extent the Secretary determines that by reason of casualty, disaster, or other
unusual circumstances the imposition of such addition to tax would be against equity and good
conscience.” We believe that the individuals who will be assessed the ES penalty as a direct
result of the Making Work Pay Credit fall into an “unusual circumstance” and that it would not
be in good conscience to assess a penalty to taxpayers when the cause of the penalty rests with
the administration of the credit rather than taxpayers’ actions.
On June 19, 2009, we issued an audit alert to the IRS discussing this issue and recommended that
the IRS make preparations to identify taxpayers who will have the ES penalty assessed or
increased due to the Making Work Pay Credit and take steps to waive or abate the related penalty
amounts. The IRS initially informed us that it was aware of the potential impact on taxpayers
and in response to our audit alert has made plans to address the issue. The IRS recently
concluded that to the extent the penalty is caused by the application of the change in withholding
tables to those taxpayers for whom the change was overbroad, waiver of the penalties would be


15
  The IRS estimates this number to be closer to 65,000. However, we disagree with some of the assumptions the
IRS used to arrive at the final number.




                                                                                                       Page 16
                  Millions of Taxpayers May Be Negatively
 

              Affected by the Reduced Withholding Associated
 

                       With the Making Work Pay Credit 




appropriate. It plans to alert taxpayers to the availability of this relief by adding additional
content to the Tax Withholding and Estimated Tax (Publication 505), the instructions for the
Underpayment of Estimated Tax by Individuals, Estates and Trusts (Form 2210), and the
instructions for the U.S. Individual Income Tax Return (Form 1040) on how affected taxpayers
should self-identify and how they should compute their amount of waiver of estimated tax
penalty.
We estimate the amount of ES penalty that will be assessed because of the Making Work Pay
Credit may total more than $24.5 million.




                                                                                          Page 17
                     Millions of Taxpayers May Be Negatively
 

                 Affected by the Reduced Withholding Associated
 

                          With the Making Work Pay Credit 




                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to assess IRS efforts to implement the Making Work
Pay Credit and to evaluate its impact on taxpayers. Other objectives included evaluating the
logic of the new withholding tables, quantifying the number of taxpayers who could be
negatively affected, and evaluating the effectiveness of IRS efforts to inform taxpayers of the
potential, negative impacts.
To accomplish our objectives, we:
I.	     Evaluated new withholding tables to ensure the Making Work Pay Credit will be
        allocated to taxpayers appropriately.
        A. Discussed with Department of the Treasury management the planning process for
           developing the new withholding tables and obtained available documentation.
        B. Identified the new amounts that were intended to be withheld and the reasoning for
           them (for both single and joint filers).
        C. Determined whether tables were accurately modified to ensure stimulus payments
           were distributed properly.
             1. Calculated the amount of annual withholding, for a variety of income levels, using
                the old tables.
             2. Calculated the amount of annual withholding, for the same income levels as
                Step I.C.1., using the new tables.
             3. Determined the difference between the figures calculated in Steps I.C.1. and 2.
                We verified that single filers are having no more than $400 ($800 for joint filers)
                withheld by December 31, 2009.
             4. Determined whether phase-out limits1 will be properly applied using the tables.




1
  The phase-out limits in the law are different than those limits contained in the new withholding tables. The new
tables begin phasing out at about $66,530 ($118,130 for joint filers) and phase out completely at about $84,300
($144,800 for joint filers). In determining the number of taxpayers negatively affected, we used the phase-out
amounts found in the new tables. The tables were designed this way in an attempt to compromise between one and
two-earner families.
                                                                                                          Page 18
                     Millions of Taxpayers May Be Negatively
 

                 Affected by the Reduced Withholding Associated
 

                          With the Making Work Pay Credit 




II.	     Identified groups of taxpayers that could be negatively affected by the Making Work Pay
         Credit and quantified the results.
         A. Quantified the number of single taxpayers who had multiple Wage and Tax
            Statements (Form W-2) in TY 2007 and had a refund of less than $400.
              1. Obtained a list of single filers who had multiple Forms W-2 from the IRS’
                 Information Returns Master File.2
              2. Matched Information Returns Master File data with TIGTA Data Center
                 Warehouse3 data to determine how many single filers with multiple Forms W-2
                 had refunds less than $400.
              3. Obtained figures from the IRS Statistics of Income function of the number of
                 single filers with multiple Forms W-2 to evaluate the completeness of Information
                 Returns Master File and Data Center Warehouse data.
              4. Validated the reliability of Information Returns Master File data as well as the
                 data from our Data Center Warehouse by reviewing a random sample of five
                 records or accounts for each database and verifying the data met extract criteria
                 and were valid per IRS files.
         B. Quantified the number of joint filers who had multiple Forms W-2 in TY 2007 and
            had a refund of less than $400.
              1. Obtained a list of joint filers who had multiple Forms W-2 from the Information
                 Returns Master File.
              2. Obtained a list of joint filers where both spouses had a Form W-2 in TY 2007 and
                 a refund of less than $400 from the Data Center Warehouse.
              3. Matched Information Returns Master File data with Data Center Warehouse data
                 to determine how many joint filers with multiple Forms W-2 had refunds less than
                 $400.
              4. Obtained figures from the IRS Statistics of Income function to determine the
                 number of joint filers with multiple Forms W-2. We used this count to evaluate
                 the reasonableness of the Information Returns Master File data and Data Center
                 Warehouse data.
              5. Assessed the reliability of Information Returns Master File data as well as the
                 data from our Data Center Warehouse by reviewing a random sample of five


2
  The Information Returns Master File is the IRS database that stores data from various types of information returns.
3
  The Data Center Warehouse is a collection of IRS Databases containing various types of taxpayer account
information that is maintained by the TIGTA for the purpose of analyzing data for ongoing audits.
                                                                                                            Page 19
           Millions of Taxpayers May Be Negatively
 

       Affected by the Reduced Withholding Associated
 

                With the Making Work Pay Credit 




       records or accounts for each database and verifying the data met extract criteria
       and were valid per IRS files.
C. Quantified the number of dependents who had both a Form W-2 in TY 2007 and had
   a refund of less than $400.
    1. Obtained a list of data from the Data Center Warehouse to determine how many
       dependents reported wages and had a refund less than $400.
    2. Obtained figures from the Statistics of Income function to determine the number
       of dependents with a Form W-2. We used this count to evaluate the completeness
       of the Data Center Warehouse data.
    3. Assessed the reliability of the data by reviewing a random sample of five records
       or accounts and verified the data met extract criteria and were valid per IRS files.
D. Determined the number of taxpayers who received pensions that could be negatively
   affected by the Making Work Pay Credit.
    1. Used Data Center Warehouse data to identify taxpayers (married or single) who
       received pensions in TY 2007 and had a refund of $650, $600, or $400 depending
       on their situation.
    2. Assessed the reliability of the data by reviewing a random sample of five records
       or accounts (for each of the eight pension scenarios for a total of 40 records) and
       verified the data met extract criteria and were valid per IRS files.
    3. Discussed with IRS management the use of the withholding tables for pensioners.
E. Determined whether controls were in place to prevent recipients of Social Security
   benefits, veterans’ benefits, and railroad retirement benefits from receiving duplicate
   economic stimulus payments if they qualify for more than one of these benefits. This
   information was gathered through a discussion with an employee at the Railroad
   Retirement Inspector General and a review of the Social Security Administration
   notice regarding the economic recovery payment.
F.	 Determined the number of taxpayers who filed a return using an ITIN that could be
    negatively affected by the Making Work Pay Credit.
    1. Used the Data Center Warehouse data to identify taxpayers (married or single)
       who filed a return using an ITIN in TY 2007 and had a refund of $400 or less if
       single or $600 or less if married.
    2. Assessed the reliability of the data by reviewing a random sample of five records
       or accounts for single ITIN filers and five records or accounts for joint ITIN filers
       and verified the data met extract criteria and were valid per IRS files.


                                                                                    Page 20
                   Millions of Taxpayers May Be Negatively
 

               Affected by the Reduced Withholding Associated
 

                        With the Making Work Pay Credit 




        G. Determined the number of taxpayers who may be assessed the penalty for
           underpayment of estimated tax as a result of receiving the Making Work Pay Credit
           erroneously.
            1. Contacted IRS management to determine the penalty computation in order to
               better identify taxpayers who may be directly affected.
            2. Contacted the IRS to determine how it plans to work cases that are assessed the
               penalty for underpayment of estimated tax as a result of the Making Work Pay
               Credit and if the effects of the Making Work Pay Credit will be considered a
               reasonable cause to abate the penalty.
            3. Quantified the number of taxpayers that may be assessed the penalty for
               underpayment of estimated tax as a result of receiving an erroneous amount of the
               Making Work Pay Credit.
            4. Assessed the reliability of the data by randomly selecting and reviewing five
               records or accounts for each identified scenario.
        H. Determined the number of Social Security recipients, who also have wages, that could
           be negatively affected by the Making Work Pay Credit.
            1. Used the Data Center Warehouse data to identify taxpayers (married or single)
               who received Social Security benefits, wages, and had a refund of $50 or less if
               married and $250 or less if single.
            2. Assessed the reliability of the data by reviewing a random sample of five single
               filer and five joint-filer records or accounts and verified the data met extract
               criteria and were valid per IRS files.
III.	   Determined the effectiveness of IRS outreach efforts to notify taxpayers of the new
        Making Work Pay Credit.
        A. Determined whether the Department of the Treasury or the IRS attempted to identify
           taxpayers who could be negatively affected by the Making Work Pay Credit.
        B. Performed research and obtained information from IRS management regarding the
           action that has been taken (i.e., newsletters published) to inform taxpayers about the
           Making Work Pay Credit and what they can do to avoid owing taxes in TYs 2009
           and 2010 as a result of the Making Work Pay Credit.
        C. Sampled taxpayers negatively affected by the Making Work Pay Credit and
           determined whether they are aware of the credit.




                                                                                           Page 21
                     Millions of Taxpayers May Be Negatively
 

                 Affected by the Reduced Withholding Associated
 

                          With the Making Work Pay Credit 




             1. Selected a sample4 of 385 taxpayers from the groups negatively affected and
                researched telephone numbers for them.
             2. Contacted 50 of these taxpayers via telephone in May 2009 to determine their
                awareness of the Making Work Pay Credit and its potential negative effects, and
                their knowledge of what can be done to reverse the negative effects.
             3. Contacted an additional 50 taxpayers in July 2009 to determine the effectiveness
                of the IRS’ general awareness campaign to notify taxpayers of the Making Work
                Pay Credit.
             4. Contacted an additional 14 taxpayers in August 2009 from the single filers and
                joint filers with multiple jobs categories to determine the effectiveness of the IRS’
                general awareness campaign to notify taxpayers of the Making Work Pay Credit.




4
  We selected a judgmental sample using the interval sampling method. A judgmental sample was used because the
results were not to be projected over the population of negatively affected taxpayers (15.4 million). The additional
64 taxpayers in III.C.3 and III.C.4 were selected using the same method.




                                                                                                           Page 22
                 Millions of Taxpayers May Be Negatively
 

             Affected by the Reduced Withholding Associated
 

                      With the Making Work Pay Credit 




                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Kyle R. Andersen, Director
Bill R. Russell, Audit Manager
W. George Burleigh, Lead Auditor
Roy E. Thompson, Senior Auditor
Lance J. Welling, Auditor
Richard Hillelson, Information Technology Specialist




                                                                                    Page 23
                Millions of Taxpayers May Be Negatively
 

            Affected by the Reduced Withholding Associated
 

                     With the Making Work Pay Credit 




                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement SE:W:S:PRA:PEI




                                                                               Page 24
          Millions of Taxpayers May Be Negatively
 

      Affected by the Reduced Withholding Associated
 

               With the Making Work Pay Credit 




                                                          Appendix IV

Management’s Response to the Draft Interim Report




                                                               Page 25
    Millions of Taxpayers May Be Negatively
 

Affected by the Reduced Withholding Associated
 

         With the Making Work Pay Credit 





                                                    Page 26
    Millions of Taxpayers May Be Negatively
 

Affected by the Reduced Withholding Associated
 

         With the Making Work Pay Credit 





                                                    Page 27
    Millions of Taxpayers May Be Negatively
 

Affected by the Reduced Withholding Associated
 

         With the Making Work Pay Credit 





                                                    Page 28
    Millions of Taxpayers May Be Negatively
 

Affected by the Reduced Withholding Associated
 

         With the Making Work Pay Credit 





                                                    Page 29
